CERTIFICATE OF COMPLIANCE
I hereby certify that the accompanying Petition for Writ of Certiorari in William Kinney Jr., et.
complies with the word
al., vs. Urban Housing Development, et. ah, No.
count limitations of Supreme Court Rule 33(g) in that it contains 4.209
words based on the
word count function of Microsoft Word 2016, including footnotes and excluding material not
required to be counted by Rule 33(d).

dated A'H , lr,2 O

<2

t

SIGNATURE
j -4
C iJW k. a i
ALL RIGHTS RESERVED,DROIT.1
O'jTy
Signature made parallel to UCC 1-308,2-211,2-213
UCC §2-211 Legal Recognition of electronic contracts, records, and signatures; (1) A record or signature may not be denied legal
effect or enforceability solely because it is in electronic form. UCC § 2-213 Electronic communication (1) If the receipt of an
electronic communication has a legal effect, it has that effect even if no individual is aware of its receipt.

[State of OREGON]
County of MuLtN DMAyA
,
Signed and sworn to (or affirmed) before me on (date) A/DV&^P&R-l^ 20 £0
(name(s) of individuals making statement) V\)ilU^va X AJXPfffr OvVfc

•by

Notary Public - [State of Oregon]
Official Stamp
V
OFFICIAL STAMP
RACHILT VILLA
£/l NOTARY PUBLIC OREGON
COMMISSION NO. 1004336
MY COMMISSION EXPIRES SEPTEMBER 23,2024

IS

CERTIFICATE OF COMPLIANCE - WRIT OF CERTIORARI TO THE SUPREME FOR THE UNITED STATES OF AMERICA - Page 1 of 1

